Audit Report




OIG-10-038
SAFETY AND SOUNDNESS: Material Loss Review
of Citizens National Bank
March 22, 2010




Office of
Inspector General
Department of the Treasury
Contents

Audit Report...............................................................................................           1

    Results in Brief ..........................................................................................       2

    Causes of CNB’s Failure .............................................................................             4

        Rapid Growth and High Concentrations ...................................................                      4
        Risky Management Practices ..................................................................                 6

    OCC’s Supervision of CNB .........................................................................              12

        OCC    Detected Changes in CNB’s Investment Portfolio ..............................                        13
        OCC    Issued New Guidance on Investment Securities.................................                        14
        OCC    Appropriately Used Prompt Corrective Action ...................................                      15
        OCC    Lessons-Learned Review ................................................................              17

    Other Regulatory Matter ............................................................................            17

    Recommendations .....................................................................................           18

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                    21
    Appendix     2:      Background........................................................................         24
    Appendix     3:      Glossary ...........................................................................       28
    Appendix     4:      Chronology of Significant Events ..........................................                34
    Appendix     5:      OCC CNB Examinations and Enforcement Action ....................                           38
    Appendix     6:      Prior OIG Material Loss Review Recommendations ..................                          41
    Appendix     7:      Management Response .......................................................                44
    Appendix     8:      Major Contributors to This Report .........................................                46
    Appendix     9:      Report Distribution ..............................................................         47

Abbreviations

    ALLL                      allowance for loan and lease losses
    ANB                       ANB Financial, National Association
    CCB                       Citizens Central Bancorp
    CEO                       chief executive officer
    CMO                       collateralized mortgage obligation
    CNB                       Citizens National Bank


                         Material Loss Review of Citizens National Bank (OIG-10-038)                              Page i
COB        chairman of the board
CRE        commercial real estate
CRP        capital restoration plan
FDIC       Federal Deposit Insurance Corporation
IT         information technology
MRA        matter requiring attention
OCC        Office of the Comptroller of the Currency
OIG        Office of Inspector General
PCA        prompt corrective action
ROE        report of examination
SCB        Strategic Capital Bank




       Material Loss Review of Citizens National Bank (OIG-10-038)   Page ii
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General




                       March 22, 2010

                       John C. Dugan
                       Comptroller of the Currency

                       This report presents the results of our material loss review of the
                       failure of Citizens National Bank (CNB), of Macomb, Illinois, and of
                       the Office of the Comptroller of the Currency’s (OCC) supervision
                       of the institution. OCC closed CNB and appointed the Federal
                       Deposit Insurance Corporation (FDIC) as receiver on May 22,
                       2009. 1 Section 38(k) of the Federal Deposit Insurance Act
                       mandated this review because of the magnitude of CNB’s
                       estimated loss to the Deposit Insurance Fund. 2 As of January 29,
                       2010, FDIC estimated that the loss would be $26 million. 3

                       Our objectives were to determine the causes of CNB’s failure;
                       assess OCC’s supervision of the bank, including implementation of
                       the prompt corrective action (PCA) provisions of section 38; and
                       make recommendations for preventing such a loss in the future. To
                       accomplish these objectives, we reviewed the supervisory files and
                       interviewed OCC and FDIC officials, conducting fieldwork from
                       August through November 2009. Appendix 1 contains a more
                       detailed description of our material loss review objectives, scope,
                       and methodology.

1
  The Chief Executive Officer (CEO)/Chairman of the Board (COB) of CNB owned 40 percent of the
stock in the holding company for CNB. The CEO/COB also held 40 percent of the stock in the single-
bank holding company for Strategic Capital Bank (SCB), an FDIC-supervised institution. Both CNB and
SCB failed on the same day. The FDIC Office of Inspector General (OIG) conducted a material loss
review of SCB and issued its report on December 4, 2009 (FDIC OIG, Material Loss Review of Strategic
Capital Bank, Champaign, Illinois, Report No. MLR-10-007). The loss estimate for SCB reported by FDIC
OIG was $172.3 million. FDIC subsequently revised the loss estimate to $212 million as of January 29,
2010.
2
  Section 38(k) defines a loss as material if it exceeds the greater of $25 million or 2 percent of the
institution’s total assets.
3
  The original loss estimate was $102.9 million. As of December 31, 2009, FDIC decreased this amount
to $26 million based on revised estimated recoveries.

                       Material Loss Review of Citizens National Bank (OIG-10-038)               Page 1
               We also include several other appendices to this report. Appendix 2
               contains background information on CNB’s history and OCC’s
               supervision processes. Appendix 3 is a glossary of terms used in
               this report. These terms are underlined and, in the electronic
               version of the report on our Web site, hyperlinked to the glossary.
               Appendix 4 contains a chronology of significant events related to
               CNB’s history and OCC’s supervision of the institution. Appendix 5
               shows examinations of CNB by OCC from 2005 to 2009 and the
               enforcement action taken by OCC against CNB. Appendix 6 shows
               Treasury Office of Inspector General recommendations from
               material loss reviews of failed OCC-regulated institutions completed
               since November 2008.


Results in Brief
               CNB failed because management undertook a high-risk strategy of
               investing heavily in private-label collateralized mortgage obligations
               (CMOs) and commercial real estate (CRE) loan participations. These
               assets were funded principally with brokered deposits. This
               strategy led to a rapid growth and high concentrations in CMOs
               and CRE loan participations. CNB’s management and board did not
               establish adequate controls commensurate with the risks
               associated with these assets. In addition, management purchased
               subprime automobile loans without properly reviewing the loan
               applications underwritten by a third party. Significant portions of
               the CMOs, CRE loan participations, and subprime automobile loans
               subsequently defaulted and were written off, causing the bank to
               become undercapitalized. There were certain transactions related to
               the bank that are under further OCC review.

               We believe that OCC could not have done anything significantly
               different to prevent CNB’s failure and the material loss to the
               Deposit Insurance Fund. OCC examiners detected increases in
               CNB’s investment portfolio and changes in the bank’s investment
               strategy as reflected in the fourth quarter 2007 and first quarter
               2008 call reports. In July 2008 OCC conducted a targeted
               examination of CREs that it considered to be of higher risk. OCC
               expanded the scope of its targeted examination to review the
               bank’s downgraded CMO holdings and in November 2008
               conducted a complete review of the bank’s CMO investments,


               Material Loss Review of Citizens National Bank (OIG-10-038)     Page 2
                     including its risk management practices and the risk assessments
                     of the CMOs.

                     OCC had extensive internal discussions and worked with other
                     supervisory agencies to provide proper guidance to the bank on
                     risk-weighting of the downgraded CMOs. Subsequently, OCC
                     issued additional guidance for risk management of structured
                     investment securities. OCC also took appropriate actions required
                     by PCA as CNB’s capital levels fell.

                     As a regulatory matter, current law and regulatory standards permit
                     banks to purchase investment grade CMOs without any statutory
                     limitation. 4 Given the experience with the National Bank of
                     Commerce, which failed due to significant losses from preferred
                     stock holdings in the Federal National Mortgage Association and
                     the Federal Home Loan Mortgage Corporation 5 and more recently
                     CNB, we believe that circumstances and conditions point to a
                     potentially vulnerable regulatory area.

                     We are recommending that OCC (1) assess the adequacy of its
                     recently issued guidance on investment securities after it has been
                     in use for a reasonable time and (2) work with its regulatory
                     partners to determine whether to propose legislation and/or change
                     regulatory guidance to establish limits or other controls for bank
                     investments.

                     In a written response, OCC agreed that it is important to have an
                     ongoing process to assess the adequacy of its bank supervision
                     policies. In this regard, its policy experts respond to questions from
                     bankers and examiners regarding the application of policies. The
                     interaction enables them to recognize situations where
                     clarifications or additional guidance are needed. Also, OCC stated
                     that it is too early to say whether the final outcome of the
                     deliberations with its regulatory partners will include changes in
                     bank investment limits or risk management expectations. It will
                     continue to study the situation and interface with its regulatory


4
  12 U.S.C. § 24 (Seventh). OCC issued implementing guidance in 12 C.F.R. Part 1, Investment
Securities.
5
  Safety and Soundness: Material Loss Review of National Bank of Commerce, OIG-09-042 (Aug. 6,
2009).

                     Material Loss Review of Citizens National Bank (OIG-10-038)            Page 3
                      partners when appropriate. OCC’s response is provided as
                      appendix 7.

                      We consider the actions taken and planned by OCC as responsive
                      to the recommendations. We plan to evaluate OCC’s process for
                      updating guidance in the future. We will also monitor the progress
                      of the interagency deliberations with respect to bank investment
                      limits or risk management expectations as part of our future
                      planned work.


Causes of CNB’s Failure
                      CNB failed because management pursued an aggressive growth
                      strategy concentrated in high-risk private-label CMOs 6 and CRE
                      loan participations, which were funded principally with brokered
                      deposits. CNB management also purchased and experienced losses
                      on subprime automobile loans underwritten by a third party without
                      properly reviewing the loans. CNB’s board did not ensure that bank
                      management identified, measured, monitored, and controlled the
                      high risks associated with CNB’s assets.

                      Rapid Growth and High Concentrations

                      CNB’s assets grew rapidly after a change of ownership in January
                      2006. As figure 1 shows, from the end of 2005 to the end of
                      2008, CNB’s total assets increased from $253 million to $446
                      million, or 76 percent. The asset growth was funded by brokered
                      deposits, which increased from $31 million to $192 million during
                      the same period. This increase resulted in CNB holding less capital
                      in relation to the assets it owned. Growth in CNB’s assets was
                      most pronounced from 2006 to 2007; over that period, the bank’s
                      assets increased by 39 percent. From 2007 to 2008, however,
                      total assets decreased from $453 million to $446 million due to
                      write-downs of some assets.




6
 There are two kinds of CMOs—agency CMOs and private-label CMOs. Agency CMOs carry the
guarantee of a government or a government-sponsored enterprise, such as the Federal National
Mortgage Association or the Federal Home Loan Mortgage Corporation. Private-label CMOs do not carry
such guarantees.

                      Material Loss Review of Citizens National Bank (OIG-10-038)            Page 4
        Figure 1. CNB Asset Growth, Calendar Years 2005-2008 (in millions)



                                                      $453              $446 
$500 
$450 
$400                                 $325 
$350 
               $253 
$300 
$250 
$200 
$150 
$100 
 $50 
  $0 
             2005                   2006            2007              2008

        Source: CNB call reports.


        The rapid growth in CNB’s assets was accompanied by high
        concentrations in a few types of assets, particularly private-label
        CMOs and CRE loan participations. CMOs represented
        approximately 192 percent of the bank’s Tier 1 capital plus
        allowance for loan and lease losses (ALLL) as of September 30,
        2008. Total CRE loans represented approximately 432 percent of
        the bank’s Tier 1 capital plus ALLL as of that date.

        The rapid growth in highly concentrated assets resulted in elevated
        risk. As economic conditions worsened, asset quality deteriorated
        as evidenced by a high level of adversely classified assets. As
        shown in figure 2, total adversely classified assets as a percentage
        of Tier 1 capital plus ALLL rose from 13 percent in November
        2005, just 2 months before the bank changed ownership, to 312
        percent by November 2008. CMOs accounted for more than half of
        the $70.5 million in adversely classified assets.




        Material Loss Review of Citizens National Bank (OIG-10-038)             Page 5
                        Figure 2. Adversely Classified Assets as Percentage of Tier 1 Capital Plus ALLL



              350%                                                                       312%

              300%

              250%

              200%
                                                                        121%
              150%

              100%
                                13%                 14%
               50%

                0%
                           Nov 05              May 07               Jul 08            Nov 08
                        Source: OCC ROEs.


                        Eventually, rapid growth and high concentrations in assets
                        vulnerable to economic downturn resulted in significant losses to
                        CNB and led to its failure. From its private-label CMO investments,
                        CNB lost $20.5 million in the second half of 2008 and the first
                        quarter of 2009 due to their reduced value. CNB also lost $2.2
                        million in 2008 from its CRE loan participations.

                        Risky Management Practices

                        OCC defines a concentration of credit as direct, indirect, or
                        contingent obligations collectively exceeding 25 percent of the
                        bank’s capital structure (Tier 1 risk-based capital plus the ALLL). 7
                        Concentrations pose additional risk because the same economic,
                        political, or environmental event can negatively affect the entire
                        group of assets or liabilities. According to OCC, a bank is
                        potentially exposed to elevated commercial credit risk if total CRE
                        loans represent over 300 percent of total capital and the balance of




7
    OCC Comptroller’s Handbook, Concentration of Credits (March 1990).

                        Material Loss Review of Citizens National Bank (OIG-10-038)                Page 6
                     the portfolio has increased more than 50 percent in the prior 36
                     months. 8

                     The concentrations in private-label CMOs and CRE loans posed
                     significant risks but CNB’s board and management did not
                     implement internal systems to control the risks. During back to
                     back examinations, OCC examiners found that the bank’s risk
                     management practices were not commensurate with the level of
                     risk related to its significant concentrations in CMOs (2008 exam)
                     and CRE loans (2007 exam).

                     Investments in Private-Label CMOs

                     In early 2007, before purchasing private-label CMOs, CNB’s
                     investment portfolio was concentrated in good quality and
                     relatively safe municipal bonds and government and agency issues.
                     CNB purchased $66 million in the CMOs during the 6-month period
                     ending March 31, 2008. At the time of purchase, the CMOs were
                     rated investment grade. However, in May 2008, two of the CMO
                     holdings were downgraded below investment grade and began
                     declining in value.

                     The decision to purchase the private-label CMOs in such a short
                     period of time was made by the bank’s senior management.
                     According to board meeting minutes, CNB’s board members did not
                     question or object to management’s decision. The investments
                     were funded by a significantly increased volume of brokered
                     deposits, which went from $31 million to $192 million, a 600
                     percent increase, from the end of 2005 to the end of 2008. The
                     original purpose of this increase in brokered deposits was to
                     purchase long-term municipal bonds but was expanded to fund the
                     purchase of the CMOs.

                     In May 2007, while the bank focused on investing in municipal
                     bonds and had not yet expanded the investment portfolio to
                     private-label CMOs, OCC reviewed CNB’s security investment
                     strategy and raised a number of concerns with risk management.
                     Some of the concerns—in particular, weak interest rate and


8
 OCC Bulletin 2006-46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (December 6, 2006).

                     Material Loss Review of Citizens National Bank (OIG-10-038)           Page 7
                      liquidity risk management—later became more critical when
                      management purchased the CMOs.

                      OCC Bulletin 98-20 outlines supervisory expectations for risk
                      management practices that financial institutions should establish
                      and maintain to manage the market, credit, liquidity, legal,
                      operational, and other risks of investment securities. It states that:

                          “the agencies expect institutions to understand the price
                          sensitivity of securities before purchase (pre-purchase
                          analysis) and on an ongoing basis. In addition, to properly
                          assess exposure to interest rate risk, institutions should
                          understand the price sensitivity of the aggregate investment
                          portfolio.” 9

                      OCC Bulletin 2002-19 further emphasizes the need to have an
                      appropriate risk management framework for the level of risk taken
                      in the investment portfolio, to supplement credit ratings with
                      internal credit analysis, and for bank management to demonstrate
                      an understanding of the structure of the security. 10 CNB’s
                      management and board failed to establish a risk management
                      framework that addressed these needs. Also, they did not adhere
                      to the comprehensive risk management practices that the guidance
                      outlined.

                      After CNB purchased the private-label CMOs, OCC issued further
                      guidance regarding risks involved and additional actions that were
                      needed. According to OCC guidelines, the risks associated with
                      CMOs include credit, liquidity, price, and interest rate risks, and
                      banks should establish security investment policies and risk
                      management guidelines that address these risks effectively and
                      comprehensively. In addition, banks with significant exposure to
                      concentrations of credit, or those not adequately managing
                      concentration risks, may require capital in excess of regulatory
                      minimums. 11

                      As previously noted, CNB management purchased a large amount
                      of private-label CMOs within a short time. Although the CMOs

9
   OCC Bulletin 98-20, Investment Securities (April 27, 1998).
10
   OCC Bulletin 2002-19, Unsafe and Unsound Investment Portfolio Practices (May 22, 2002).
11
   OCC Bulletin 2009-15, Investment Securities (May 22, 2009).

                      Material Loss Review of Citizens National Bank (OIG-10-038)            Page 8
were rated either AAA or AA when CNB purchased them, two of
the bonds, which represented about 31 percent of the total CMOs
the bank owned, were subsequently downgraded to CCC when a
rating company reassessed the risks based on certain mortgage
collateral components that became noncurrent.

CRE loan participations

When concentrations in CRE or other real estate exist, sound credit
risk management systems and maintenance of appropriate capital
levels are critical. An appropriate credit risk management system in
such circumstances would include strong underwriting standards
and policies and procedures to monitor and manage inherent risks.
Although OCC Bulletin 2006-46 does not provide quantifiable limits
on banks’ CRE lending, it does describe risk management practices
that allow an institution to pursue CRE lending in a safe and sound
manner. According to guidance, institutions should address the
following key elements in establishing a risk management
framework that effectively identifies, monitors, and controls CRE
concentration risk:

•       board and management oversight
•       portfolio management
•       management information systems
•       market analysis
•       credit underwriting standards
•       portfolio stress testing and sensitivity analysis
•       credit risk review function

In addition, according to OCC Comptroller’s Handbook, Loan
Portfolio Management, satisfactory controls over the purchase of
loans and participations in loans ordinarily include the following:

•       sound policies and procedures governing these transactions
•       an independent analysis of credit quality by the purchasing
        bank
•       agreement by the obligor to make full credit information
        available to the selling bank
•       agreement by the selling bank to provide available
        information on the obligor to the purchaser



Material Loss Review of Citizens National Bank (OIG-10-038)     Page 9
                      •       written documentation of recourse arrangements outlining
                              the rights and obligations of each party. 12

                      CNB management purchased $22 million in CRE loan participations
                      between July 2006 and December 2007. The loans were
                      originated by ANB Financial, National Association (ANB), which
                      was placed into receivership on May 9, 2008. In our report on the
                      material loss review of ANB’s failure, we stated that

                          “[b]y 2006, the combination of CRE loan concentrations, the
                          softening of the residential real estate market, and
                          weaknesses in ANB’s credit risk management practices
                          resulted in deterioration of ANB’s asset quality and an
                          increase in the volume of adversely classified and criticized
                          assets.” 13

                      OCC examiners repeatedly raised their concerns to CNB about the
                      bank’s deficient risk management. During the 2007 full-scope
                      examination, examiners found CNB’s CRE loan risk management
                      practices to be deficient and included the deficiency as a matter
                      requiring attention (MRA) in the report of examination (ROE).
                      During the July 2008 targeted examination, examiners found that
                      the CRE loan credit risk had increased. They also found that CNB’s
                      board and management had not addressed MRAs raised during the
                      2007 full-scope examination. The examiners re-emphasized the
                      importance of addressing these outstanding MRAs and made
                      additional recommendations concerning management of the CRE
                      loan credit risk.

                      Subprime automobile loans

                      CNB also purchased 179 subprime automobile loans totaling
                      approximately $3.4 million within a very short period, from
                      November 2007 to February 2008. The credit underwriting was
                      primarily performed by a third party and agreed to by CNB. Among
                      the 179 loans, only 3 were fully paid, 50 loans went into default
                      on their first payment or were charged off, and the remaining were


12
  OCC Comptroller’s Handbook, Loan Portfolio Management (April 1998).
13
  Safety and Soundness: Material Loss Review of ANB Financial, National Association, OIG-09-013
(Nov. 25, 2008).

                      Material Loss Review of Citizens National Bank (OIG-10-038)           Page 10
                        adversely classified. OCC examiners were particularly critical about
                        the purchases as a reckless action.

                        Risk-weighting of CMOs

                        For risk-weighting of structured investment securities, such as
                        private-label CMOs, existing regulatory requirements direct banks
                        to assign risk-weights to the securities based on external credit
                        ratings or, alternately, based on an analysis of the obligor or
                        underlying collateral. 14 During the second quarter of 2008, the
                        credit rating of two of the CMOs held by CNB was reduced to
                        CCC, a sub-investment grade, considerably increasing the risk-
                        weight for the downgraded securities in calculating risk-based
                        capital ratios pursuant to 12 C.F.R. Part 3. 15 In connection with its
                        filing of the call report for June 30, 2008, CNB requested on
                        July 25, 2008, that, among other risk-based capital treatments,
                        OCC allow a risk-weight of 20 percent for the downgraded
                        securities. In this regard, the CEO/COB of CNB, who was also the
                        CEO/COB of SCB, had already been notified by FDIC on July 17,
                        2008, that SCB should assign the downgraded CMOs a 100
                        percent risk-weight, requiring SCB to maintain additional capital. As
                        discussed later in this report, OCC initially responded to CNB’s
                        request by allowing a 50 percent risk-weighting but later
                        determined that a 100 percent risk-weighting was appropriate,
                        consistent with FDIC’s guidance to SCB. We believe that CNB’s
                        request of OCC for a lower risk-rating than that already directed by
                        FDIC for the affiliated bank only served to delay the proper financial
                        regulatory reporting of its true financial condition.

                        In summary, board and management did not establish adequate
                        controls to manage the risks associated with CMOs and CRE loan
                        participations. Significant portions of these assets subsequently
                        defaulted and were written off, causing the bank to become
                        undercapitalized. OCC closed the bank on May 22, 2009, and
                        appointed FDIC as receiver.

14
   Section 4 of 12 C.F.R. Part 3, Appendix A, as amended July 1, 2002, Recourse, Direct Credit
Substitutes and Positions in Securitizations.
15
   A bank’s total risk-based capital ratio is calculated by dividing the capital base – sum of tier 1 and tier
2 capital – by risk-weighted assets. Risk-weighted assets include balance sheet assets and off-balance
sheet items in proportion to their relative credit risk. The net effect of risk-weighting is that banks must
hold more capital to absorb potential losses as risks associated with its assets increase.

                        Material Loss Review of Citizens National Bank (OIG-10-038)                   Page 11
OCC’s Supervision of CNB
                       We believe that OCC could not have done anything significantly
                       different to prevent CNB’s failure and the material loss to the
                       Deposit Insurance Fund. OCC examiners detected increases in
                       CNB’s investment portfolio when the bank decided to shift its
                       investment strategy to purchase CMOs. In determining the proper
                       risk-weighting, OCC deliberated with other supervisory agencies to
                       provide proper guidance to the bank on risk-weighting of the
                       downgraded CMOs. Subsequently, OCC issued additional guidance
                       for risk management of structured investment securities. OCC also
                       took the required PCA actions as CNB’s capital levels fell.

                       Table 1 lists OCC’s examinations of CNB conducted from
                       November 2005 to November 2008. 16 Appendix 5 provides
                       additional details of these examinations, including MRAs and other
                       recommendations made by OCC.

        Table 1. OCC Examinations of CNB, November 2005-November 2008

                                                              Examination Results
        Date started
        Type of            Assets     CAMELS        Number       Number of           Formal enforcement
        examination      (millions)   rating        of MRAs      recommendations     action
        11/3/2005
        (full-scope
        examination)         $230     1/111212           0                2          None
        5/21/2007
        (full-scope
        examination)         $329     1/121212           5                6          None
        7/7/2008
        (targeted
        examination)         $461     3/342232           4                3          None
        11/3/2008
        (full-scope                                                                  PCA directive issued
        examination)         $452     5/555533           3                0          4/22/2009
           Source: OCC ROEs and PCA directive.




16
  OCC conducted its examinations of CNB in accordance with the timeframes prescribed by OCC
policy.

                       Material Loss Review of Citizens National Bank (OIG-10-038)                 Page 12
OCC Detected Changes in CNB’s Investment Portfolio

As already mentioned, CNB purchased $66 million of the private-
label CMOs during the fourth quarter 2007 and first quarter 2008.
During periodic monitoring activities, OCC examiners noted the
increases in CNB’s investment portfolio and the change in the
bank’s investment strategy through its reviews of the call reports
for those periods. According to the examiners, the CMO purchases
did not prompt concern on their part at the time because the CMOs
were highly rated, investment grade securities.

Two of these CMOs became sub-investment grade in May 2008.
OCC examiners became aware of the downgrade in late July 2008,
about 2 months later, when informed of the downgrade by CNB’s
CEO/COB. Although the examiners may have discovered the
downgrade sooner by reviewing such things as CNB’s board
minutes, we concluded that this would not have significantly
affected the supervisory response. During our audit, we discussed
with OCC officials whether monitoring activities between
examinations should include reviews of board minutes as they can
provide early indications of changes in a bank’s strategy and risk
profile. According to OCC, to do so would require examiners to
obtain voluminous documents from banks and the review of the
documents would be resource intensive, detract from other
activities, and is contrary to OCC’s risk-based supervisory
approach. We accept in the case of CNB that such reviews of
board minutes would not have made a significant difference, but
this is an area we plan to explore further in future work.

In July 2008, OCC conducted a targeted examination of CNB’s
CRE loan participations. During the targeted examination, the
examiners became aware of the issues associated with the CMOs
and expanded the scope of the examination. The CMOs were
reviewed by an OCC capital markets expert and Headquarters
policy staff during the targeted exam, and, as indicated earlier in
this report, there was extensive communication between OCC and
the bank regarding the quality of the CMOs and their risk-weights.
OCC conducted a more comprehensive review of the bank’s risk
management practices with respect to CMO purchases during the
November 2008 full-scope examination.



Material Loss Review of Citizens National Bank (OIG-10-038)   Page 13
OCC Issued New Guidance on Investment Securities

As discussed earlier, in late July 2008, CNB sought OCC’s
permission to use a lower risk-weight (20 percent) than indicated in
existing guidance for two of its private-label CMOs after they were
downgraded to below investment grade during the second quarter
of 2008. The request was critical for the bank because more of its
CMOs were subsequently downgraded after the second quarter of
2008. OCC’s Peoria field office requested guidance from OCC’s
capital markets specialists in the district office and Headquarters.
Initially, the capital markets specialists informed the field office that
the bank should apply a 50 percent, rather than the 20 percent,
risk-weight sought by the bank.

CNB reported its capital position as well capitalized in its second
quarter 2008 call report. In that call report, CNB used 20 percent
as the risk-weight for the CMOs. Immediately after the filing, in late
July 2008, OCC’s Peoria field office directed the bank to refile the
call report subjecting the full amount of the CMOs to a 50 percent
risk-weight. As a result, the bank’s capital position was reported as
undercapitalized when the call report was refiled on August 5,
2008. Subsequently, CNB’s holding company infused $1 million
into the bank to increase capital.

Discussion about the appropriate risk-weighting continued among
OCC, FDIC, and Federal Reserve capital markets specialists into
September 2008 when it was then concluded that the bank should
assign a 100 percent risk-weight for CMO holdings with non-
performing mortgages and a 50 percent risk-weight for CMO
holdings with performing mortgages. CNB applied the guidance to
its third quarter 2008 call report filing and reported its capital
position as undercapitalized for that quarter as well. (OCC did not
direct the bank to revise its second quarter 2008 call report based
on the new guidance).

The deliberation among the capital markets specialists also resulted
in more definitive guidance being issued regarding risk-based
capital treatment. The OCC capital markets specialist we
interviewed told us that the existing regulatory guidelines had been
established without envisioning that banks would purchase
structured investment securities, and regulatory guidelines were


Material Loss Review of Citizens National Bank (OIG-10-038)       Page 14
                        complex to interpret. After the interagency discussions on the
                        issue, OCC issued a bulletin in May 2009 to provide guidance for
                        banks on risk management concerning structured investment
                        securities. 17 If the guidance is properly followed, it should result in
                        better risk management of investment securities. However,
                        because this is a complex area, we believe it would be prudent for
                        OCC to assess the adequacy of the guidance.

                        OCC Appropriately Used Prompt Corrective Action

                        The purpose of PCA is to resolve problems on insured depository
                        institutions with the least possible long-term loss to the Deposit
                        Insurance Fund. PCA requires federal banking agencies to take
                        certain actions when an institution’s capital drops to certain levels.
                        PCA also gives regulators flexibility to discipline institutions based
                        on criteria other than capital levels to help reduce deposit insurance
                        losses caused by unsafe and unsound practices.

                        Based on the supervisory actions, we concluded OCC implemented
                        applicable PCA provisions, as follows:

                            •   In a letter dated August 28, 2008, OCC notified CNB that its
                                total risk-based capital ratio caused it to be in the adequately
                                capitalized category for PCA purposes, based on CNB’s
                                balance sheet as of August 5, 2008 (after the $1 million
                                capital infusion discussed earlier). OCC’s notice appropriately
                                informed CNB that the adequately capitalized category
                                prohibited it from accepting or renewing brokered deposits
                                without a waiver from the FDIC and restricted the effective
                                yield on deposits.

                            •   On November 3, 2008, based on the September 30, 2008
                                call report, OCC notified CNB of its undercapitalized category
                                and directed it to submit a capital restoration plan (CRP) to
                                OCC by December 15, 2008. OCC informed CNB that an
                                acceptable CRP must satisfactorily address the steps the
                                bank would take to achieve and maintain capital levels to
                                meet the adequately capitalized category pursuant to PCA;
                                the types and levels of activities in which CNB would


17
     See footnote 11.

                        Material Loss Review of Citizens National Bank (OIG-10-038)       Page 15
                              engage; and how CNB would comply with PCA’s restrictions
                              against asset growth, acquisitions, branching, and new lines
                              of business. OCC notified CNB that failure to submit an
                              acceptable CRP by December 15, 2008, would cause the
                              bank to be significantly undercapitalized for PCA purposes.
                              Also, OCC informed CNB that regulations prohibited the bank
                              from accepting or renewing brokered deposits and restricted
                              the effective yield on insured deposits.

                              On January 26, 2009, OCC notified CNB that its CRP was
                              unacceptable due to its dependence on receiving assistance
                              from Treasury to restore capital. 18

                          •   On February 5, 2009, OCC notified CNB of its significantly
                              undercapitalized category based on the December 31, 2008,
                              call report, and again directed CNB to submit an acceptable
                              CPR by March 2, 2009. OCC informed the bank that it was
                              subject to restrictions regarding capital distributions,
                              management fees, asset growth, acquisitions, branching,
                              new lines of business, and senior executive officers’
                              compensation pursuant to PCA. CNB’s PCA status also
                              prohibited it from accepting employee benefit plan deposits.
                              OCC reminded the bank of the requirements for an
                              acceptable CRP, including Citizens Central Bancorp’s
                              guarantee that CNB would comply with the plan, guarantee
                              of liability for 5 percent of CNB’s assets, and appropriate
                              assurances of performance.

                          •   On March 20, 2009, OCC notified CNB of its intention to
                              issue a PCA Directive, based on the report of examination as
                              of September 30, 2008. The letter stated that the bank was
                              significantly undercapitalized for PCA purposes and had
                              failed to submit an acceptable CRP.




18
   On November 14, 2008, Citizens Central Bancorp, CNB’s holding company, applied to OCC for
financial assistance under the Department of the Treasury’s Capital Purchase Program. The Capital
Purchase Program was implemented by Treasury using its Troubled Asset Relief Program authorities
granted by the Emergency Economic Stabilization Act of 2008. On November 18, 2008, given the
bank’s troubled condition, OCC did not recommend approval of CCB’s request to Treasury.

                      Material Loss Review of Citizens National Bank (OIG-10-038)             Page 16
                             •   On March 30, 2009, CNB informed OCC that it was unable
                                 to submit an acceptable CRP because it had no prospects for
                                 obtaining the significant amount of capital that it needed.

                             •   On April 22, 2009, OCC issued a PCA Directive to CNB. The
                                 PCA Directive required the bank to become adequately
                                 capitalized for PCA purposes by June 30, 2009, through the
                                 sale of shares or obligations; a merger or acquisition; or the
                                 sale of all or substantially all of its assets and liabilities. The
                                 PCA Directive informed CNB that it was subject to the
                                 mandatory restrictions for significantly undercapitalized
                                 banks set forth in 12 U.S.C. § 1830o and 12 C.F.R. Part 6.

                         It should be noted that had the bank properly risk-weighted the
                         CMOs in its initial call report filings in late July 2008, its capital
                         levels would have been reported as less than well-capitalized earlier
                         and certain PCA limitations would have applied to the bank 3
                         months sooner. When the bank’s financial condition was reported
                         as deteriorating below required capital levels, OCC took the
                         appropriate enforcement action addressing CNB’s capital deficiency
                         in accordance with PCA capital-related provisions. When CNB was
                         unsuccessful in raising the needed capital, OCC closed it on
                         May 22, 2009.

                         OCC Lessons-Learned Review

                         According to OCC headquarters officials, OCC had not begun an
                         internal lessons-learned review of the failure of CNB. The purpose
                         of the lessons-learned review is to assess the causes of the failure
                         and OCC’s supervision of the bank.


Other Regulatory Matter
                         Investment Securities Limitation

                         Current law and regulatory standards permit banks to purchase
                         investment grade CMOs without any statutory limitation. 19 Given
                         the experience with the National Bank of Commerce, which failed
                         due to significant losses from preferred stock holdings in the

19
     U.S.C. 24 (Seventh). OCC issued implementing guidance in 12 C.F.R. Part 1, Investment Securities.

                         Material Loss Review of Citizens National Bank (OIG-10-038)            Page 17
           Federal National Mortgage Association and the Federal Home Loan
           Mortgage Corporation and more recently CNB, we believe that
           circumstances and conditions described in this report point to a
           potentially vulnerable regulatory area.

Recommendations
           Our material loss review of CNB is the eighth such review we have
           performed of a failed OCC-regulated financial institution during the
           current financial crisis. Appendix 6 lists the other seven material
           loss reviews and our associated recommendations. With one
           exception noted in the appendix, OCC management agreed with
           the prior recommendations and has taken or is taking corrective
           actions to address them.

           As a result of our material loss review of CNB, we recommend that
           the Comptroller of the Currency do the following:

           1. Due to the complexity of the risk-based capital treatment of
              structured investment securities, assess the adequacy of OCC
              Bulletin 2009-15, Investment Securities, after it has been in use
              for a reasonable time.

               Management Response

               OCC agreed that it is important to have an ongoing process to
               assess the adequacy of its bank supervision policies. OCC
               stated that its policy experts respond to questions from bankers
               and examiners regarding the application of policies, such as
               Bulletin 2009-15, and recognize situations where clarifications
               or additional guidance are needed.

               OIG Comment

               We understand that OCC has an ongoing process to assess its
               bank supervision policies and, as with the case of OCC Bulletin
               2009-15, the guidance was updated in response to questions
               from bankers and examiners. To the extent this revised bulletin
               is subjected to periodic assessment, the intent of our
               recommendation is met. We plan to evaluate OCC’s process for
               updating guidance in the future.

           Material Loss Review of Citizens National Bank (OIG-10-038)   Page 18
                      2. Work with OCC’s regulatory partners to determine whether to
                         propose appropriate legislation and/or change regulatory
                         guidance to establish limits or other controls for bank
                         investments.

                          Management Response

                          OCC works with other regulators to develop guidance on a
                          variety of subjects where common issues or concerns exist. The
                          Federal Financial Institutions Examination Council 20 and other
                          interagency forums are evaluating a number of factors that
                          contributed to the current problems in the banking industry and
                          will consider what regulatory changes are needed. At this point,
                          it is too early to say whether the final outcome of those
                          deliberations will include changes in bank investment limits or
                          risk management expectations, but we will continue to study
                          the situation and interface with our regulatory partners when
                          appropriate.

                          OIG Comment

                          Although OCC did not include a timeframe for the interagency
                          deliberations and any actions resulting from those deliberations,
                          we believe OCC’s response meets the intent of our
                          recommendations. We plan to monitor progress in this area in
                          the future.




20
   The Federal Financial Institutions Examination Council was established in 1979 pursuant to the
Financial Institutions Regulatory and Interest Rate Control Act of 1978. The Council is a formal
interagency body empowered to prescribe uniform principles, standards, and report forms for the federal
examination of financial institutions by the Board of Governors of the Federal Reserve System, FDIC,
the National Credit Union Administration, OCC, and the Office of Thrift Supervision.


                      Material Loss Review of Citizens National Bank (OIG-10-038)              Page 19
                               * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-6512 or Delores V. Dabney, Audit
Manager, at (202) 927-5941. Major contributors to this report are
listed in appendix 8.




/s/
Michael J. Maloney
Audit Director




Material Loss Review of Citizens National Bank (OIG-10-038)   Page 20
                         Appendix 1
                         Objectives, Scope, and Methodology




                         We conducted this material loss review of Citizens National Bank
                         (CNB), Macomb, Illinois, in response to our mandate under section
                         38(k) of the Federal Deposit Insurance Act. 21 This section provides
                         that if a deposit insurance fund incurs a material loss with respect
                         to an insured depository institution, the inspector general for the
                         appropriate federal banking agency is to prepare a report to the
                         agency, which shall

                             •   ascertain why the institution’s problems resulted in a
                                 material loss to the insurance fund;
                             •   review the agency’s supervision of the institution, including
                                 its implementation of the prompt corrective action provisions
                                 of section 38; and
                             •   make recommendations for preventing any such loss in the
                                 future.

                         Section 38(k) defines a loss as material if it exceeds the greater of
                         $25 million or 2 percent of the institution’s total assets. The law
                         also requires the inspector general to complete the report within
                         6 months after it becomes apparent that a material loss has been
                         incurred.

                         To accomplish our review, we conducted fieldwork at the Office of
                         the Comptroller of the Currency’s (OCC) headquarters in
                         Washington, D.C., its field office in Peoria, Illinois, and CNB’s main
                         office in Macomb, Illinois. We interviewed officials of the Federal
                         Deposit Insurance Corporation’s (FDIC) Division of Supervision and
                         Consumer Protection and Division of Resolutions and
                         Receiverships. We conducted our fieldwork from August through
                         November 2009.

                         To assess the adequacy of OCC’s supervision of CNB, we
                         determined (1) when OCC first identified CNB’s safety and
                         soundness problems, (2) the gravity of the problems, and (3) the
                         supervisory response OCC took to get the bank to correct the
                         problems. We also determined whether OCC (1) might have
                         discovered problems earlier; (2) identified and reported all the
                         problems; and (3) issued comprehensive, timely, and effective



21
     12 U.S.C. § 1831o(k).

                         Material Loss Review of Citizens National Bank (OIG-10-038)     Page 21
Appendix 1
Objectives, Scope, and Methodology




enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

    •   We determined that the time period covered by our audit
        would begin with the 2005 examination and end with CNB’s
        failure on May 22, 2009. This period included two safety
        and soundness examinations prior to OCC’s identifying CNB
        as a troubled institution and assigning it a composite
        CAMELS rating of 5.

    •   We reviewed OCC supervisory files and records for CNB
        from November 2005 through May 2009. We analyzed
        examination reports, supporting workpapers, and related
        supervisory and enforcement correspondence. We performed
        these analyses to gain an understanding of the problems
        identified, the approach and methodology OCC used to
        assess the bank’s condition, and the regulatory action OCC
        used to compel bank management to address deficient
        conditions. We did not conduct an independent or separate
        detailed review of the external auditor’s work or associated
        workpapers other than those incidentally available through
        the supervisory files.

    •   We interviewed and discussed various aspects of the
        supervision of CNB with OCC officials and an examiner in
        charge to obtain their perspective on the bank’s condition,
        the scope of the examinations, and supervisory steps taken.
        We also interviewed FDIC Division of Supervision and
        Consumer Protection personnel who were responsible for
        monitoring CNB for federal deposit insurance purposes.

    •   We interviewed FDIC Division of Resolutions and
        Receiverships personnel involved in the receivership process,
        which was conducted before and after CNB’s closure and
        appointment of a receiver.

    •   We interviewed FDIC OIG personnel and reviewed the OIG’s
        material loss review report on Strategic Capital Bank to gain
        an understanding of the issues surrounding the bank’s failure
        and FDIC’s supervision of the bank.



Material Loss Review of Citizens National Bank (OIG-10-038)    Page 22
                        Appendix 1
                        Objectives, Scope, and Methodology




                            •   We reviewed CNB records obtained by the FDIC Division of
                                Resolutions and Receiverships and located at the bank in
                                Macomb, Illinois.

                            •   We assessed OCC’s actions based on its internal guidance
                                and the requirements of the Federal Deposit Insurance Act. 22

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




22
     12 U.S.C. § 1811 et seq.

                        Material Loss Review of Citizens National Bank (OIG-10-038)    Page 23
                      Appendix 2
                      Background




                      Citizens National Bank History

                      Citizens National Bank (CNB) was established as a state bank in
                      1890 and converted to a national bank charter in 1939. CNB was a
                      community bank with trust powers. In addition to its main office,
                      CNB had five branch offices and one loan production office in
                      Illinois. Citizens Central Bancorp, Inc., a one-bank holding
                      company, wholly owned CNB. Two individuals owned
                      approximately 80 percent of the holding company.

                      Appendix 4 contains a chronology of significant events regarding
                      CNB.

                      Types of Examinations Conducted by the Office of the Comptroller
                      of the Currency

                      The Office of the Comptroller of the Currency (OCC) conducts
                      various types of bank examinations, including full-scope
                      examinations. A full-scope examination is a combined examination
                      of the institution’s safety and soundness, compliance with various
                      rules and regulations, and information technology (IT) systems. The
                      safety and soundness portion of the examination includes a review
                      and evaluation of capital adequacy, asset quality, management
                      effectiveness, earnings performance, liquidity and asset/liability
                      management, and sensitivity to market risk. The IT portion of the
                      full-scope examination evaluates the overall performance of IT
                      within the institution and the institution’s ability to identify,
                      measure, monitor, and control technology-related risks. The
                      compliance portion of the examination includes an assessment of
                      how well the bank manages compliance with various consumer
                      protection regulations, such as Truth in Lending, Truth in Savings,
                      and the Bank Secrecy Act. A targeted examination is any
                      examination that does not fulfill all the statutory requirements of a
                      full-scope examination. 23




23
   12 U.S.C. § 1820(d) generally requires that the appropriate federal banking agency conduct a full-
scope, onsite examination of each insured depository institution at least once during each 12-month
period. However, the 12-month period may be extended to 18 months depending on the size and other
circumstances of the affected institution.

                      Material Loss Review of Citizens National Bank (OIG-10-038)              Page 24
                      Appendix 2
                      Background




                      The results of full-scope examinations are used to assign ratings to
                      banks. 24 OCC, like other bank regulatory agencies, uses the
                      Uniform Financial Institutions Rating System, commonly called
                      CAMELS ratings. A bank’s composite rating under CAMELS
                      integrates ratings from six component areas: capital adequacy,
                      asset quality, management, earnings, liquidity, and sensitivity to
                      market risk.

                      OCC assigns each banking organization individual CAMELS
                      component ratings and a composite rating that indicates the
                      institution’s overall condition. CAMELS composite and component
                      ratings are on a five-point scale, with 1 being the best score and
                      5 being the worst.

                      Banks with a composite rating of 1 are sound in every respect,
                      generally have components rated 1 or 2, and give no cause for
                      supervisory concern. Banks with a composite rating of 2 are
                      fundamentally sound, generally have no component rated 4 or 5,
                      and exhibit no material supervisory concerns. Banks with a
                      composite rating of 3 exhibit some degree of supervisory concern
                      in one or more component areas, generally have no component
                      with a rating of 5, and require more than normal supervision, which
                      may include formal or informal enforcement actions. Banks with a
                      composite rating of 4 exhibit unsafe and unsound practices and
                      have problems ranging from severe to critically deficient that are
                      not being satisfactorily addressed by management. Banks with a
                      composite rating of 5 exhibit extremely unsafe and unsound
                      practices or conditions, have critically deficient performance, and
                      present the greatest supervisory concern.

                      Types of Enforcement Actions Available to OCC

                      OCC uses informal and formal enforcement actions to address
                      violations of laws, rules, regulations, and unsafe and unsound
                      practices or conditions.




 Ratings may also be assigned as a result of targeted examinations and in some cases, periodic
24

monitoring activities.

                      Material Loss Review of Citizens National Bank (OIG-10-038)                Page 25
Appendix 2
Background




Informal Enforcement Actions

When a bank’s overall condition is sound but it is necessary to
obtain written commitments from its board of directors to ensure
that identified problems and weaknesses will be corrected, OCC
may use informal enforcement actions. Informal enforcement
actions provide a bank with more explicit guidance and direction
than a report of examination normally contains but are generally
not legally binding.

Informal enforcement actions include commitment letters,
memoranda of understanding, and 12 C.F.R. Part 30 safety and
soundness plans. Commitment letters and memoranda of
understanding contain specific bank commitments to take
corrective actions in response to problems or concerns identified by
OCC in its supervision of the bank. Part 30 informal enforcement
actions require the bank to submit a compliance plan for OCC
approval that outlines the steps the bank will take and timeframes
to correct identified deficiencies. Failure to submit a timely,
acceptable plan or failure to comply with a plan once it has been
accepted is a basis for a public, enforceable order. Unlike formal
enforcement actions, informal actions are not disclosed to the
public.

Formal Enforcement Actions

Formal enforcement actions are authorized by statute, generally
more severe, and disclosed to the public. Formal actions are also
enforceable through the assessment of civil money penalties and,
with the exception of formal agreements, through the federal court
system. Formal enforcement actions available to OCC include
consent orders, cease and desist orders, formal written
agreements, and prompt corrective action directives.

OCC Enforcement Guidelines

OCC policy specifies that determining the appropriate enforcement
action, whether informal or formal, depends on the following:

•   the overall condition of the bank;



Material Loss Review of Citizens National Bank (OIG-10-038)   Page 26
                        Appendix 2
                        Background




                        •   the nature, extent, and severity of the bank’s problems and
                            weaknesses;

                        •   the commitment and ability of bank management to correct the
                            identified deficiencies; and

                        •   the existence of previously identified but unaddressed problems
                            or weaknesses. 25




25
     OCC Policies and Procedures Manual 5310-3 (Rev.)

                        Material Loss Review of Citizens National Bank (OIG-10-038)   Page 27
                   Appendix 3
                   Glossary


Adversely classified asset         An asset rated as substandard, doubtful, or loss.
                                   Substandard assets are inadequately protected by the
                                   current worth and paying capacity of the obligor or of
                                   the collateral pledged, if any. A doubtful asset has all
                                   the weaknesses of a substandard asset with the
                                   added characteristic that the weaknesses make
                                   collection or liquidation in full questionable and
                                   improbable. A loss asset is considered uncollectible
                                   and of such little value that continuation as a bankable
                                   asset is not warranted.

Allowance for loan and             An estimate of uncollectible amounts that is used
lease losses                       to reduce the book value of loans and leases to the
                                   amount that is expected to be collected. It is
                                   established in recognition that some loans in the
                                   institution’s overall loan and lease portfolio will not be
                                   repaid.

Brokered deposit                   Any deposit that is obtained, directly or indirectly,
                                   from a deposit broker. Under 12 U.S.C. 1831f and 12
                                   C.F.R. 337.6, the use of brokered deposits is limited
                                   to well-capitalized insured depository institutions and,
                                   with a waiver from the Federal Deposit Insurance
                                   Corporation (FDIC), to adequately capitalized
                                   institutions. Undercapitalized institutions are not
                                   permitted to accept brokered deposits.

Call report                        A quarterly report of income and financial condition
                                   that banks file with their regulatory agency. The
                                   contents of call reports include consolidated detailed
                                   financial information on assets, liabilities, capital, and
                                   loans to executive officers, as well as income,
                                   expenses, and changes in capital accounts.

CAMELS                             An acronym for performance rating components for
                                   financial institutions: capital adequacy, asset quality,
                                   management, earnings, liquidity, and sensitivity to
                                   market risk. Numerical values range from 1 to 5 with
                                   1 being the best rating and 5 being the worst. The
                                   Office of the Comptroller of the Currency (OCC) uses
                                   the CAMELS rating system to evaluate a bank’s
                                   overall condition and performance by assessing each


                   Material Loss Review of Citizens National Bank (OIG-10-038)         Page 28
                    Appendix 3
                    Glossary


                                    of the six rating components and assigning numerical
                                    values. OCC then assigns each bank a composite
                                    rating based on its assessment of the overall condition
                                    and level of supervisory concern.

Capital Purchase Program            The Emergency Economic Stabilization Act of 2008,
                                    Pub. L. No. 110-342, 122 Stat. 3267, section 101(a)
                                    authorized Treasury to establish the Troubled Assets
                                    Relief Program to, among other things, purchase
                                    troubled assets from financial institutions. Under this
                                    authority, Treasury created a voluntary program--the
                                    Capital Purchase Program in which the United States
                                    government, through the Department of the Treasury,
                                    invests in preferred equity securities issued by
                                    qualified financial institutions.

Capital restoration plan            Under the prompt corrective action requirements of
                                    the Federal Deposit Insurance Act, a capital
                                    restoration plan is to be submitted to the appropriate
                                    federal banking agency by any undercapitalized
                                    insured depository institution. A capital restoration
                                    plan specifies the steps the insured depository
                                    institution is to take to become adequately capitalized,
                                    the levels of capital to be attained during each year in
                                    which the plan is in effect, how the institution is to
                                    comply with the restrictions or requirements then in
                                    effect, the types and levels of activities in which the
                                    institution is to engage, and any other information that
                                    the federal banking agency may require.

Collateralized mortgage
obligation                          A type of mortgage-backed security. The cash flows
                                    underlying collateralized mortgage obligations (CMO)
                                    are ordered into tranches by some characteristic (such
                                    as repayment time), with each tranche sold as a
                                    separate security. Typically, CMO tranches are paid
                                    sequentially from the most senior (super senior to
                                    senior) to the most subordinate (mezzanine, then
                                    equity). The more senior tranches generally have
                                    higher credit ratings i.e., AAA, AA, or A than the
                                    subordinated tranches.



                    Material Loss Review of Citizens National Bank (OIG-10-038)      Page 29
                     Appendix 3
                     Glossary


Commercial real estate loans         Loans for real property where the primary or
                                     significant source of repayment is from rental income
                                     associated with the property or the proceeds of the
                                     sale, refinancing, or permanent financing of the
                                     property. Commercial real estate loans include
                                     construction and real estate development, land
                                     development, and commercial properties such as
                                     office buildings and shopping centers.

Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers.

Full-scope examination               Examination activities performed during the
                                     supervisory cycle that (1) are sufficient in scope to
                                     assign or confirm a bank’s CAMELS composite and
                                     component ratings; (2) satisfy core assessment
                                     requirements; (3) result in conclusions about a bank’s
                                     risk profile; (4) include onsite supervisory activities;
                                     and (5) generally conclude with the issuance of a
                                     report of examination.

Loan participation                   The sharing of a loan by a group of banks that join
                                     together to make a loan too large for any one of the
                                     banks to handle. Loan participation is a convenient
                                     way for smaller banks to book loans that would
                                     otherwise exceed their legal lending limits (see loan-to-
                                     value for limits).

Loan-to-value                        A ratio for a single loan and property calculated by
                                     dividing the total loan amount at origination by the
                                     market value of the property securing the credit plus
                                     any readily marketable collateral or other acceptable
                                     collateral. In accordance with Interagency Guidelines
                                     for Real Estate Lending Policies, institutions’ internal
                                     loan-to-value limits should not exceed the legal lending
                                     limit: (1) 65 percent for raw land; (2) 75 percent for
                                     land development; (3) 80 percent for commercial,
                                     multifamily, and other nonresidential loans; and (4) 85
                                     percent for one-family to four-family residential loans
                                     The guidelines do not specify a limit for owner-

                     Material Loss Review of Citizens National Bank (OIG-10-038)       Page 30
                   Appendix 3
                   Glossary


                                   occupied one-family to four-family properties and
                                   home equity loans. However, when the loan-to-value
                                   ratio on such a loan equals or exceeds 90 percent at
                                   the time of origination, the guidelines state that the
                                   bank should require mortgage insurance or readily
                                   marketable collateral.

Matter requiring                   A bank practice noted during an OCC examination of a
attention                          bank that deviates from sound governance, internal
                                   controls, and risk management principles. The
                                   matters, if not addressed, may adversely impact the
                                   bank’s earnings, capital, risk profile, or reputation, or
                                   may result in substantive noncompliance with laws
                                   and regulations, internal policies or processes, OCC
                                   supervisory guidance, or conditions imposed in writing
                                   or other requests by a bank. Although matters
                                   requiring board attention are not formal enforcement
                                   actions, OCC requires that banks address them. A
                                   bank’s failure to do so may result in a formal
                                   enforcement action.


Prompt corrective action           A framework of supervisory actions, set forth in
                                   12 U.S.C. §1831o, for insured depository institutions
                                   that are not adequately capitalized. It was intended to
                                   ensure that action is taken when an institution
                                   becomes financially troubled in order to prevent a
                                   failure or minimize resulting losses. These actions
                                   become increasingly severe as a bank falls into lower
                                   capital categories. The capital categories are well-
                                   capitalized, adequately capitalized, undercapitalized,
                                   significantly undercapitalized, and critically
                                   undercapitalized. The prompt corrective action
                                   minimum requirements are as follows:




                   Material Loss Review of Citizens National Bank (OIG-10-038)       Page 31
                      Appendix 3
                      Glossary


                                                              Tier 1/
                                        Total                 Risk-                 Tier 1/
               Capital Category         Risk-Based            Based                 Leverage
                                        10% or         and 6% or           and 5% or greater
               Well-capitalizeda
                                        greater              greater
               Adequately               8% or          and 4% or           and 4% or greater
               capitalized              greater              greater             (3% for 1-rated)
                                        Less           or    Less          or    Less than 4% (except
               Undercapitalized
                                        than 8%              than 4%             for 1-rated)
               Significantly            Less           or    Less          or    Less than 3%
               undercapitalized         than 6%              than 3%
                                        Has a ratio of tangible equity to total assets that is equal
               Critically
                                        to or less than 2 percent. Tangible equity is defined in
               undercapitalized
                                        12 C.F.R. § 565.2(f).
               a
                 To be well-capitalized, a bank also cannot be subject to a higher capital requirement
               imposed by OCC.

Risk-based capital                    The sum of Tier 1 plus Tier 2 capital.

Risk-weighted asset                   An asset rated by risk to establish the minimum
                                      amount of capital that is required within institutions.
                                      To weight assets by risk, an institution must assess
                                      the risk associated with the loans in its portfolio;
                                      institutions whose portfolios hold more risk require
                                      more capital.

Structured investment
securities                            Products that are part of the securitization market. In
                                      an asset-backed security, the cash flows from the
                                      underlying assets (collateral) can be allocated to
                                      investors in different ways. Cash flows (payment
                                      streams) can be "passed-through" directly to the
                                      investors or carved up according to specific rules and
                                      investor demand, thereby creating "structured"
                                      investment securities. These various structures meet
                                      the needs of different investor types by allowing them
                                      to invest in a product that meets their risk appetite
                                      and collateral and earnings requirements. These
                                      securities include private label mortgage-backed
                                      securities, resecuritizations, and trust-preferred
                                      securities.

Targeted examination                  A bank examination that does not fulfill all of the
                                      requirements of a statutory full-scope examination.


                      Material Loss Review of Citizens National Bank (OIG-10-038)               Page 32
                 Appendix 3
                 Glossary


                                 Targeted examinations may focus on one particular
                                 product, function, or risk, or they may cover specialty
                                 areas.

Tier 1 capital                   Common shareholder’s equity (common stock,
                                 surplus, and retained earnings), noncumulative
                                 perpetual preferred stock, and minority interests in the
                                 equity accounts of consolidated subsidiaries.

Tier 2 capital                   Subordinated debt, intermediate-term preferred stock,
                                 cumulative and long-term preferred stock, and a
                                 portion of a bank’s allowance for loan and lease
                                 losses.

Tranches                         Portions of a related group of securities that are
                                 offered simultaneously but that have different risks,
                                 rewards, or maturities. A typical CMO consists of
                                 tranches of underlying mortgages with different
                                 characteristics, such as repayment time. Tranches are
                                 categorized from senior to subordinate. Senior
                                 tranches generally have higher credit ratings than
                                 subordinated tranches.




                 Material Loss Review of Citizens National Bank (OIG-10-038)       Page 33
                  Appendix 4
                  Chronology of Significant Events




The following chronology describes significant events in the history of Citizens
National Bank (CNB), including examinations conducted and enforcement actions taken
by the Office of the Comptroller of the Currency (OCC). For additional information on
the results of examinations, including any significant safety and soundness matters
requiring attention and recommended actions, see appendix 5.

1890              CNB is established as an Illinois state bank.

1939              CNB converts to a national bank charter.

4/27/2005         Citizens Central Bancorp’s (CCB) board agrees to sell CNB to JGS
                  Investment Group, of Oak Brook, Illinois.

7/22/2005         CCB’s shareholders ratify the sale of CNB to JGS Investment
                  Group.

10/27/2005        The Board of Governors of the Federal Reserve Board approves the
                  application for the formation of CCB Acquisition Corporation, Oak
                  Brook, Illinois, to wholly acquire CCB and, thus wholly acquire
                  CNB. CCB’s chief executive officer and chairman of the board
                  begins to actively manage CNB.

11/3/2005         OCC begins a full-scope examination of CNB, with financial
                  information as of September 30, 2005, resulting in CAMELS
                  composite and component ratings of 1/111212.

1/31/2006         The acquisition of CNB is completed, and new boards for CCB and
                  CNB are elected.

9/25/2006         OCC reviews the changes by CNB’s new board and management
                  made to its investment portfolio and balance sheet.

                  OCC begins an interim review as of June 30, 2006, resulting in
                  CAMELS composite and component ratings of 1/111212.

3/1/2007          CNB opens a loan production office in Oak Brook, Illinois.

5/21/2007         OCC begins a full-scope examination of CNB with financial
                  information as of March 31, 2007, resulting in CAMELS composite
                  and component ratings of 1/121212.




                  Material Loss Review of Citizens National Bank (OIG-10-038)   Page 34
              Appendix 4
              Chronology of Significant Events




7/30/2007     CNB’s June 30, 2007, call report, indicates that CNB’s total risk-
              based capital ratio has caused the bank’s capitalization category for
              prompt corrective action (PCA) purposes to drop from well-
              capitalized to adequately capitalized.

7/31/2007     CCB injects $1.75 million into CNB to make the bank well
              capitalized.

4Q 2007 and   CNB purchases $66 million in private label collateralized
1Q 2008       mortgage obligations (CMOs).

4/07/2008     OCC conducts a review of CNB’s commercial real estate (CRE) loan
              participations.

7/7/2008      OCC begins a targeted examination of CNB, which focuses on the
              bank’s commercial real estate loan participations. The examination
              results in assignment of CAMELS composite and component
              ratings of 3/342232.

7/30/2008     CNB’s PCA category declines from well-capitalized to adequately
              capitalized based on information in its June 30, 2008, call report.

8/5/2008      CCB injects $1 million into CNB.

8/28/2008     OCC’s Peoria field office notifies CNB that it is adequately
              capitalized. The notice informs CNB that the adequately capitalized
              category prohibits CNB from accepting or renewing brokered
              deposits without a waiver from the Federal Deposit Insurance
              Corporation and restricts the effective yield that CNB can offer on
              deposits.

10/30/2008    CNB’s PCA category declines to undercapitalized based on
              information in its September 30, 2008, call report.

11/3/2008     OCC begins a full-scope examination as of September 30, 2008,
              resulting in CAMELS composite and component ratings of
              5/555533.

              OCC’s Peoria field office notifies CNB that it is undercapitalized and
              requires CNB to submit a capital restoration plan (CRP) no later
              than December 15, 2008.



              Material Loss Review of Citizens National Bank (OIG-10-038)    Page 35
             Appendix 4
             Chronology of Significant Events




11/14/2008   CCB requests financial assistance from the Department of the
             Treasury pursuant to the Emergency Economic Stabilization Act of
             2008. OCC is unable to recommend approval of CCB’s request.

11/28/2008   OCC’s Peoria field office transfers supervision of CNB to OCC’s
             Special Supervision Division due to the bank’s deteriorating
             financial condition.

12/15/2008   CNB submits a CRP.

1/26/2009    The director of the Special Supervision Division notifies CNB that
             its CRP is not acceptable and requests that CNB submit a revised
             plan by February 2, 2009.

1/30/2009    CNB’s PCA category declines to significantly undercapitalized
             based on information in its December 31, 2008, call report.

2/5/2009     OCC informs CNB that the bank needs at least $27 million in new
             capital to address its risks and to restore it to the adequately
             capitalized category for PCA purposes.

             The director of the Special Supervision Division informs CNB’s
             board that the bank is significantly undercapitalized for PCA
             purposes and again directs CNB to submit an acceptable CRP by
             March 2, 2009.

3/20/2009    The director of the Special Supervision Division issues a Notice of
             Intent to Issue a PCA Directive.

3/30/2009    CNB responds to OCC’s notice and indicates that it did not submit
             another CRP because it had no prospects for obtaining the
             significant amount of capital that it needs.

4/16/2009    CNB’s chief executive officer enters into two written agreements
             with the Federal Reserve Board, one on behalf of CCB and one on
             behalf of Strategic Capital Bancorp, the holding company of
             Strategic Capital Bank. Both written agreements restrict CCB and
             Strategic Capital Bancorp from declaring or paying dividends,
             receiving dividends from CNB and Strategic Capital Bank,
             respectively, incurring debt, and redeeming shares.




             Material Loss Review of Citizens National Bank (OIG-10-038)     Page 36
            Appendix 4
            Chronology of Significant Events




4/21/2009   CCB’s independent public accounting firm notifies CCB that it is
            unable to complete the audit and form an opinion on the financial
            statements for CCB and CNB. The firm declines to issue a report
            and terminates its engagement with CCB.

4/22/2009   The director of Special Supervision Division issues a PCA Directive
            to CNB.

5/15/2009   To comply with the April 22, 2009, PCA Directive, CNB submits a
            CRP based on the one it submitted on December 15, 2008. The
            CRP provides for a capital infusion of $29 million from a potential
            sale of CNB and a reduction of assets and liabilities, including
            reducing deposits, Federal Reserve Board advances, private-label
            CMOs, municipal securities holdings, and loans.

5/20/2009   OCC notifies CNB that the revised CRP is not acceptable because
            although CNB identified potential investor groups, no purchaser had
            signed a binding agreement or filed any applications with the
            appropriate federal agencies. The CRP did not identify alternative
            sources of capital in the event that CNB was not sold.

5/22/2009   OCC closes CNB and appoints the Federal Deposit Insurance
            Corporation as receiver.




            Material Loss Review of Citizens National Bank (OIG-10-038)   Page 37
                    Appendix 5
                    OCC CNB Examinations and Enforcement Action




Date                                        Significant safety and soundness matters requiring               Formal
Started/           CAMELS     Assets        attention and recommendations cited in reports of                enforcement
Type of exam       ratings    ($millions)   examination.                                                     action
11/3/2005          1/111212     $230        Matters requiring attention                                      None
                                            •   None identified.
(Full-scope
examination)                                Recommendations
                                            •    Improve and upgrade credit memos with respect to the
                                                 hotel/motel loans.
                                            •    Reevaluate the methodology used to determine the
                                                 allowance for loan and lease losses (ALLL) balance with
                                                 respect to the arbitrary weights given to pools of loans,
                                                 including substandard and doubtful loans.


9/25/2006          1/111212     $270        Matters requiring attention                                      None
                                            •   None identified.
(Interim review)
                                            Recommendations
                                            •   None made.

5/21/2007          1/121212     $329        Matters requiring attention                                      None
(Full-scope                                 •    Enhance the methodology and analysis in determining

examination)                                     the adequacy of the ALLL as detailed in Office of the
                                                 Comptroller of the Currency (OCC) Bulletin 2006-47.
                                            •    Improve risk management practices commensurate with
                                                 the level of risk posed by a portfolio with a significant
                                                 concentration in commercial real estate lending as
                                                 detailed in OCC Bulletin 2006-46.
                                            •    Improve the structure of loan operations, enhance the
                                                 quality and quantity of information in loan
                                                 presentations, perform global cash flow analyses,
                                                 increase the use of loan covenants, and improve the
                                                 loan officer credit file memorandums.
                                            •    Improve monitoring of loan participations purchased as
                                                 detailed in OCC Banking Circular 181.
                                            •    Improve investment loan credit monitoring and comply
                                                 with 12 C.F.R. 1. Going forward, the purchase of all
                                                 nonrated bonds should be preceded by a formal credit
                                                 analysis.

                                            Recommendations
                                            •   Implement a process by which model inputs are
                                                occasionally independently validated. A model validation
                                                process should be consistent with the expectations
                                                outlined in OCC Bulletin 2006-16, Risk Modeling and
                                                Validation.
                                            •   Consider using a static balance sheet (i.e., no
                                                loan/deposit growth or runoff) in the base Bank Reporting
                                                Sciences model run to better capture current risk in the



                    Material Loss Review of Citizens National Bank (OIG-10-038)                               Page 38
                Appendix 5
                OCC CNB Examinations and Enforcement Action




Date                                    Significant safety and soundness matters requiring                 Formal
Started/       CAMELS     Assets        attention and recommendations cited in reports of                  enforcement
Type of exam   ratings    ($millions)   examination.                                                       action
                                            balance sheet.
                                        •   Monitor pricing tendencies and runoff of nonmaturity
                                            deposits to better gauge rate sensitivity and to determine
                                            the accuracy of decay rates of nonmaturity deposits used
                                            within the model.
                                        •   Amend the money market deposit account Trust Fund
                                            correlation from the 10 percent currently being used in
                                            the Bank Reporting Sciences model. That correlation is
                                            very low and probably does not truly represent the price
                                            sensitivity of that account.
                                        •   Assign different deposit correlations to different tiers.
                                            High deposit tiers generally contain a higher degree of
                                            rate sensitivity, and that assertion is supported by the
                                            actual deposit account rate changes during the last 14
                                            months.
                                        •   Consider running alternative rate scenarios on occasion
                                            (ramping, yield curve steepening, flattening, inversion,
                                            etc.) to identify potential quantifications/vulnerabilities.

7/7/2008       3/342232     $461        Matters requiring attention                                        None
(Targeted                               •   Augment capital levels to achieve a well capitalized

Examination)                                designation and provide sufficient Tier I capital
                                            commensurate with the bank’s risk profile.
                                        •   Reduce classified loan and investment levels.
                                        •   Closely monitor heightened liquidity risks caused by
                                            capital designation, credit deterioration, and potential
                                            adverse public reaction.
                                        •   Fully address credit, liquidity and ALLL issues highlighted
                                            as matters requiring attention in the May 2007 report of
                                            examination.

                                        Recommendations
                                        •   Utilize an effective risk-rating system, including split
                                            ratings when appropriate.
                                        •   Ensure that reappraisals or appraisal updates are obtained
                                            on all real estate-secured credits when significant market
                                            or project changes have occurred or when a material
                                            increase in credit risk has been identified.
                                        •   Expand the use and enforcement of meaningful financial
                                            and nonfinancial loan covenants.




                Material Loss Review of Citizens National Bank (OIG-10-038)                                 Page 39
                      Appendix 5
                      OCC CNB Examinations and Enforcement Action




 Date
 Started/                                   Significant safety and soundness matters requiring                Formal
 Type of          CAMELS       Assets       attention, corrective actions, recommendations, and               enforcement
 exam             rating       (millions)   other issues cited in reports of examination                      action
 11/3/2008        5/555533       $452       Matters requiring attention (directed at the board)               PCA Directive
                                            •   Immediately infuse or seek at least an additional $27         4/22/2009
 (Full-scope
 examination)                                   million to support the bank’s elevated risk profile and the
                                                bank.
                                            •   Actively and effectively participate in board committee
                                                meetings and ensure that management operates within
                                                the parameters that have been established by the board’s
                                                policies.
                                            •   Establish concentration risk limits and risk management
                                                systems that enable the board to effectively identify,
                                                measure, and control this risk.

                                            Recommendations
                                            •   None made.

Source: OCC reports of examination and call reports.




                      Material Loss Review of Citizens National Bank (OIG-10-038)                                  Page 40
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations




We have completed seven mandated material loss reviews of failed banks since
November 2008. This appendix provides our recommendations to the Office of the
Comptroller of the Currency (OCC) resulting from these reviews. With one exception
as footnoted in this appendix, OCC management concurred with the recommendations
and has taken or planned corrective actions that are responsive to the
recommendations. In certain instances, the recommendations address matters that
require ongoing OCC management and examiner attention.

 Report Title                                         Recommendations to the Comptroller
 Safety and Soundness: Material Loss Review of        Re-emphasize to examiners that examiners must
 ANB Financial, National Association, OIG-09-013      closely investigate an institution’s circumstances
 (Nov. 25, 2008)                                      and alter its supervisory plan if certain conditions
                                                      exist as specified in OCC’s Examiner’s Guide to
 OCC closed ANB Financial and appointed the           Problem Bank Identification, Rehabilitation, and
 Federal Deposit Insurance Corporation (FDIC) as      Resolution.
 receiver on May 9, 2008. At that time, FDIC
 estimated that ANB’s failure would result in a loss Re-emphasize to examiners that formal action is
 to the Deposit Insurance Fund of $214 million.      presumed warranted when certain circumstances
                                                     specified in OCC’s Enforcement Action Policy
                                                     (PPM 5310-3) exist. Examiners should also be
                                                     directed to document in the examination files the
                                                     reasons for not taking formal enforcement action
                                                     if those circumstances do exist.

                                                      Reassess guidance and examination procedures
                                                      in the Comptroller’s Handbook related to bank
                                                      use of wholesale funding with focus on heavy
                                                      reliance on brokered deposits and other nonretail
                                                      deposit funding sources for growth.

                                                      Establish in policy a “lessons-learned” process to
                                                      assess the causes of bank failures and the
                                                      supervision exercised over the institution and to
                                                      take appropriate action to address any
                                                      significant weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of        Re-emphasize to examiners the need to ensure
 First National Bank of Nevada and First Heritage     that banks take swift corrective actions in
 Bank, National Association, OIG-09-033               response to examination findings.
 (Feb. 27, 2009)
                                                      Re-emphasize to examiners OCC’s policy on the
 OCC closed First National Bank of Nevada and         preparation of supervision workpapers (i.e.,
 First Heritage Bank and appointed FDIC as            workpapers are to be clear, concise, and readily
 receiver on July 25, 2008. As of December 31,        understood by other examiners and reviewers).
 2008, FDIC estimated that the banks’ failures
 would result in losses to the Deposit Insurance
 Fund of $706 million for First National Bank of
 Nevada and $33 million for First Heritage Bank.


                      Material Loss Review of Citizens National Bank (OIG-10-038)                   Page 41
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations




Safety and Soundness: Material Loss Review of        Conduct a review of investments by national
National Bank of Commerce, OIG-09-042                banks for any potential high-risk concentrations
(Aug. 6, 2009)                                       and take appropriate supervisory action.

OCC closed National Bank of Commerce and             Reassess examination guidance regarding
appointed FDIC as receiver on January 16,            investment securities, including government-
2009. As of June 30, 2009, FDIC estimated            sponsored enterprises securities.
that the failure of National Bank of Commerce
would result in a loss to the Deposit Insurance
Fund of $92.5 million.

Safety and Soundness: Material Loss Review           Caution examiners and their supervisors that
of Ocala National Bank, OIG-09-043                   when a bank’s condition has deteriorated, it is
(Aug. 26, 2009)                                      incumbent on examiners to properly support and
                                                     document in examination workpapers the
OCC closed Ocala National Bank and appointed         CAMELS component and composite ratings
FDIC as receiver on January 30, 2009. As             assigned, including those that may not have
of August 7, 2009, FDIC estimated that the           changed from prior examinations, as well as
failure of Ocala National Bank would result in a     support a decision not to take an enforcement
loss to the Deposit Insurance Fund of                action.
$99.6 million.
                                                     Remind examiners that it is prudent to expand
                                                     examination procedures for troubled or high-risk
                                                     banks to review the appropriateness of
                                                     (a) dividends and (b) payments to related
                                                     organizations, particularly when the dividends or
                                                     payments may benefit bank management and
                                                     board members. In this regard, OCC should
                                                     reassess, and revise as appropriate, its
                                                     examination guidance for when expanded
                                                     reviews of dividends and related organizations
                                                     should be performed.

Safety and Soundness: Material Loss Review           Emphasize to examiners that matters requiring
of TeamBank, National Association, OIG-10-001        attention are to be issued in reports of
(Oct. 7, 2009)                                       examination in accordance with the criteria
                                                     regarding deviations from sound management
OCC closed TeamBank and appointed FDIC as            and noncompliance with laws and policies listed
receiver on March 20, 2009. As of September          in the Comptroller’s Handbook.
18, 2009, FDIC estimated that TeamBank’s
failure would result in a loss to the Deposit        Emphasize to examiners the need to
Insurance Fund of $98.4 million.
                                                     (a) adequately assess the responsibilities of a
                                                         controlling official (CEO/president, for
                                                         example) managing the bank to ensure that
                                                         the official’s duties are commensurate with
                                                         the risk profile and growth strategy of the
                                                         institution;

                     Material Loss Review of Citizens National Bank (OIG-10-038)                 Page 42
                         Appendix 6
                         Prior OIG Material Loss Review Recommendations




                                                         (b) review incentive compensation and bonus
                                                             plans for executives and loan officers; and
                                                         (c) ensure that banks conduct transactional and
                                                             portfolio stress testing when appropriate.

     Safety and Soundness: Material Loss Review of       Review OCC processes to ensure that more
     Omni, National Bank, OIG-10-017 (Dec. 9,            timely enforcement action is taken once the
     2009)                                               need for such action is identified. 26

     OCC closed Omni, National Bank and appointed        Impress upon examiner staff the importance of
     FDIC as receiver on March 27, 2009. As of           completing all activities in annual supervisory
     October 31, 2009, FDIC estimated a loss to the      cycles, including quarterly monitoring. In this
     Deposit Insurance Fund of $288.2 million.           regard, supervisors should ensure that quarterly
                                                         monitoring activities are scheduled and carried
                                                         out.

                                                         Implement a policy for EIC rotation for midsize
                                                         and community banks.

     Safety and Soundness: Material Loss Review of       Ensure that after a charter conversion an EIC is
     Silverton Bank N. A., OIG-10-033                    promptly assigned and supervisory coverage of
     (Jan. 22, 2010)                                     the institution is continuous, to include the
                                                         timely initiation (within no more than 12 months
     OCC closed Silverton Bank N.A. and appointed        of the full-scope examination by the prior
     FDIC as receiver on May 1, 2009. As of              regulator) of the first full-scope examination
     October 31, 2009, FDIC estimated a loss to the      after conversion.
     Deposit Insurance Fund of $1.26 billion.
                                                         Ensure that appropriate actions are taken to
                                                         amend or reinforce OCC guidance in response to
                                                         the lessons learned review of the Silverton
                                                         failure.

                                                         Ensure that banks seeking conversion to a
                                                         national charter address all significant
                                                         deficiencies identified by OCC or prior regulators
                                                         before approval.

                                                         Formalize the process for second level reviews
                                                         of charter conversions.




26
  OCC did not agree with this recommendation. In its response to our report, OCC asserted that current
policies are sufficient to ensure that timely enforcement action is taken. We accepted its position with
respect to its current processes and consider the recommendation closed.

                         Material Loss Review of Citizens National Bank (OIG-10-038)                  Page 43
Appendix 7
Management Response




Material Loss Review of Citizens National Bank (OIG-10-038)   Page 44
Appendix 7
Management Response




Material Loss Review of Citizens National Bank (OIG-10-038)   Page 45
Appendix 8
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Delores V. Dabney, Audit Manager
Myung G. Han, Analyst in Charge
Shaneasha Edwards, Program Analyst
Michelle C. Ruff, Auditor
Jeanne M. Degagne, Referencer
Asha Mede, Referencer




Material Loss Review of Citizens National Bank (OIG-10-038)   Page 46
Appendix 9
Report Distribution




Department of the Treasury

        Deputy Secretary
        Office of Strategic Planning and Performance Management
        Office of Accounting and Internal Control

Office of the Comptroller of the Currency

        Comptroller of the Currency
        Senior Advisor—OIG/GAO Liaison

Office of Management and Budget

        OIG Budget Examiner

Federal Deposit Insurance Corporation

        Chairman
        Inspector General

United States Senate

        Chairman and Ranking Member
        Committee on Banking, Housing, and Urban Affairs

        Chairman and Ranking Member
        Committee on Finance

U.S. House of Representatives

        Chairman and Ranking Member
        Committee on Financial Services

U.S. Government Accountability Office

        Acting Comptroller General of the United States




Material Loss Review of Citizens National Bank (OIG-10-038)   Page 47
